20-847
Billy Renee Frances Lillian Powers

The Bank of New York Mellon, etc. et al.

X
The Bank of New York Mellon, as Trustee, on behalf of the Holders of the Alternative Loan Trust 2007-HY9 Mortgage Pass
Through Certificates Series 2007-HY9 F/K/A The Bank of New York; Select Portfolio Servicing, Inc.; and Mortgage
Electronic Registration Systems, Inc.

X

January 6, 2021
Steven M. Dailey
X
Kutak Rock LLP
5 Park Plaza, Suite 1500
Irvine, CA
949-417-0999

Wendy Alison Nora
Access Legal Services, LLC
310 Fourth Ave. South, Suite 5010
Minneapolis, Minnesota 55415

92614
steven.dailey@kutakrock.com

